           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   OLD-AGE, SURVIVORS AND DISABILITY
 INSURANCE BENEFITS WITHHELD PENDING
    SUPPLEMENTAL SECURITY INCOME
           WINDFALL OFFSET

     November 2011   A-09-11-11130




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 21, 2011                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Old-Age, Survivors and Disability Insurance Benefits Withheld Pending Supplemental
           Security Income Windfall Offset (A-09-11-11130)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           had adequate controls to ensure Old-Age, Survivors and Disability Insurance (OASDI)
           benefits that had been withheld pending a Supplemental Security Income (SSI) windfall
           offset determination were paid accurately and timely.

           BACKGROUND
           The OASDI program provides benefits to retired and disabled workers, including their
           dependents and survivors. 1 The SSI program provides payments to financially needy
           individuals who are aged, blind, or disabled. 2 OASDI benefits count as income when
           determining SSI eligibility and payment amount. 3

           The SSI windfall offset is a provision that prevents an individual from receiving monthly
           OASDI and SSI payments in excess of the total amount that would have been paid
           had the OASDI benefits been disbursed when they were due rather than retroactively.
           Before the offset provision was enacted, the retroactive OASDI payment counted as
           income only in the month of receipt. This either lowered the SSI payment or caused the
           recipient to be ineligible for SSI for that month alone. As a result, the individual received
           full OASDI benefits without affecting the SSI payment amounts for all but 1 month of the
           same retroactive period. This outcome was considered a windfall for the individual. 4


           1
               The Social Security Act, § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               The Social Security Act, § 1601 et seq., 42 U.S.C. § 1381 et seq.
           3
               SSA, POMS, GN 02610.005.
           4
               Id.
Page 2 - The Commissioner


When beneficiaries are entitled to both OASDI and SSI for the same months, any
retroactive OASDI benefits that may be payable must be reduced by any SSI payments
that should not have been paid because of the OASDI entitlement. 5 In potential windfall
offset cases, when an OASDI claim is processed, past-due benefits are temporarily
withheld pending an SSI offset determination. 6 A follow-up diary and alert controls the
offset determination to ensure the offset is processed. 7

According to SSA’s Master Beneficiary Record (MBR), as of March 2010, approximately
158,000 OASDI beneficiaries had benefits withheld pending an SSI windfall offset
determination. For our audit, we selected a random sample of 250 beneficiaries.

RESULTS OF REVIEW
SSA needs to improve controls to ensure it accurately and timely pays OASDI benefits
withheld pending an SSI windfall offset determination. Based on our random sample,
we estimate that:

•    35,398 beneficiaries had SSI windfall offset actions that were not processed. As a
     result, SSA withheld about $306 million in OASDI benefits, of which we estimate
     approximately $232 million is payable to these beneficiaries.

•    17,067 beneficiaries had SSI windfall offset actions that were incorrectly processed.
     As a result, SSA improperly withheld or overpaid about $51.5 million in OASDI
     benefits for these beneficiaries.

•    60,051 beneficiaries had SSI windfall offset actions that were correctly processed
     but not in a timely manner. As a result, these beneficiaries did not promptly receive
     about $725.9 million in OASDI benefits (see Appendix C).

This occurred because SSA did not always (1) establish manual diaries, (2) process
requests for SSI windfall offset determinations when required, or (3) properly release
all OASDI benefits due and payable upon completion of the SSI windfall offset
determinations.




5
    SSA, POMS, GN 02610.005.B.1.
6
    SSA, POMS, SI 02006.001.A.
7
    SSA, POMS, SM 00619.070 and SM 00815.200.B.1.
Page 3 - The Commissioner


WITHHELD OASDI BENEFITS PENDING SSI WINDFALL OFFSET DETERMINATION

From a random sample of 250 beneficiaries, we found that SSA did not process the
SSI windfall offset actions for 56 beneficiaries (22.4 percent) and incorrectly processed
these actions for 27 beneficiaries (10.8 percent). In addition, SSA did not timely
process the SSI windfall offset determination for 95 beneficiaries (38 percent). For the
remaining 72 beneficiaries (28.8 percent), we found that SSA had correctly processed
the SSI windfall offset actions. 8 We summarized the results of our review below.



                         SSI Windfall Offset Determinations
                        Based on Random Sample of 250 Beneficiaries


         Not Processed (56)                                                      Incorrectly Processed
                                                                                          (27)




       Correctly Processed
               (72)                                                                 Not Timely Processed
                                                                                            (95)




SSA Controls and Procedures for SSI Windfall Offset

SSI windfall offset may apply when there is any indication an OASDI beneficiary may
be concurrently entitled to OASDI and SSI. The SSI windfall offset determination
generally involves two actions. SSA’s first action is to award the OASDI benefits
and withhold any retroactive benefits pending completion of the SSI windfall offset
determination. After making the offset determination, SSA’s second action is to release
any withheld benefits payable to the beneficiary. 9




8
  Includes four beneficiaries where SSA correctly paid the individuals but did not remove the windfall
offset amounts from the MBR.
9
    SSA, POMS, SM 00815.001.A and SM 00815.300.B.
Page 4 - The Commissioner


Either SSA’s automated system processes windfall offsets or SSA employees manually
control and process them. If SSA’s automated system is unable to process the windfall
offset, it generates a diary alert 10 every 30 days to remind the field office to make the
SSI windfall offset determination. After the field office makes its determination, the
automated system generates a diary alert after 45 days (and every 20 days thereafter)
to remind the processing center to release all withheld OASDI benefits, deduct the
appropriate SSI offset amount, and pay any remaining amount to the beneficiary. 11

For those determinations that require manual processing, SSA employees must
establish a diary to ensure (1) the offset determination is made and (2) any withheld
OASDI benefits that are payable are issued to the beneficiary. 12 Finally, SSA has
a Web-based application, referred to as electronic form 4345 (e4345), 13 that tracks and
controls manual windfall offset actions that SSA’s automated system cannot process.
For our review, we used a standard of 90 days to determine whether SSA processed
windfall offset determinations timely.

SSI Windfall Offset Actions Not Processed

SSA had not processed the SSI windfall offset actions for 56 (22.4 percent) of the
250 beneficiaries in our sample. We found that SSA did not always complete the SSI
windfall offset determinations and/or release the withheld OASDI benefits payable to
these beneficiaries. As a result, SSA withheld $484,044 in OASDI benefits for which
these beneficiaries may have been eligible. As depicted in the chart below, these
benefits were unpaid for as long as 10 years after they were due and payable.
The average length of time that SSA withheld the benefits was over 3.5 years
(1,298 days). 14




10
     Diary alerts are internal controls designed to ensure the proper offset actions are taken.
11
     SSA, POMS, SM 01320.010.A.4, SM 01320.010.A.7, and SM 00815.600.B.2.
12
     SSA, POMS, SM 00815.500.
13
  The e4345 is a Web-based application of the Form SSA-4345, Record of Manual Title II Offset
Computation.
14
     The 1,298 days was the mean. The median was 1,037 days.
Page 5 - The Commissioner




                                    SSI Windfall Offset Actions Not Processed
                                          Based on Random Sample of 250 Beneficiaries

                               18
     Number of Beneficiaries




                               16
                               14
                               12
                               10
                               8
                               6
                               4
                               2
                               0
                                    1-2    2-3    3-4    4-5     5-6    6-7    7-8     8-9     9-10   Over 10
                                                 Number of Years that Benefits Were Withheld




Of these 56 SSI windfall offset actions, SSA’s automated system should have
processed 3. Nevertheless, SSA employees did not take action when alerts were
generated. Although the SSI offset determinations were completed, SSA had taken
no action to release the OASDI benefits. The remaining 53 windfall offset actions
required manual processing. However, SSA employees did not establish manual
diaries or process requests for SSI windfall offset determinations as required. Without
the manual diaries, these OASDI benefits may never be paid.

For example, in January 2010, SSA awarded OASDI benefits to an individual effective
July 2003, resulting in $42,138 in retroactive benefits withheld for potential SSI windfall
offset. However, SSA employees did not manually complete the offset determination
or establish a diary to ensure the offset was processed and any withheld benefits due
and payable were released. As of March 2011, SSA had not paid the beneficiary any of
the $42,138 in retroactive benefits.

SSI Windfall Offset Actions Incorrectly Processed

SSA incorrectly processed the SSI windfall offset actions for 27 (10.8 percent) of
the 250 beneficiaries in our sample. This occurred because SSA did not release
the proper amount of OASDI benefits due and payable to these beneficiaries upon
completion of the SSI offset determinations. All 27 windfall offset actions were
processed manually. As a result, SSA improperly withheld or overpaid $81,450 in
OASDI benefits for these beneficiaries.

For 26 of the 27 SSI recipients, we found that SSA had released some but not all of
the withheld OASDI benefits due and payable. These recipients were entitled to an
Page 6 - The Commissioner


additional $79,797. For one SSI recipient, SSA withheld and released $6,755 but
did not process the offset amount, resulting in a $1,653 overpayment. For the
26 underpayments, the average length of time that SSA withheld the benefits was
about 3 years (1,150 days). 15

For example, in August 2004, SSA awarded OASDI benefits to an individual effective
March 2002. SSA correctly withheld all retroactive benefits from March 2002 to
July 2004, totaling $35,402, pending an SSI windfall offset determination. In
October 2004, SSA determined that no SSI offset applied, and the entire $35,402 was
payable. However, SSA only paid $29,179 of the $35,402 that was due. This occurred
because the SSA employee who processed the action to pay the withheld benefits
only released the withheld benefits from March 2002 to February 2004. The $6,223 in
benefits from March to July 2004 remained incorrectly withheld. As of March 2011,
SSA had not paid the beneficiary the $6,223.

SSI Windfall Offset Actions Not Timely Processed

SSA did not process the SSI windfall offset actions for 95 (38 percent) of the
250 beneficiaries in our sample in a timely manner. Although SSA correctly processed
the offset actions, they were not completed within 90 days. For these beneficiaries, we
found that SSA did not disburse about $1.1 million in OASDI benefits for an average of
314 days. 16

For example, in July 2006, SSA awarded OASDI benefits to an individual effective
March 2006. SSA correctly withheld the $1,548 in retroactive benefits for March
through June 2006 pending an SSI offset determination. However, SSA did not
complete the SSI offset determination until June 2010. SSA determined that no SSI
offset applied and all withheld benefits were payable. In July 2010, SSA released the
$1,548 in withheld benefits to the beneficiary. However, the beneficiary did not receive
this amount until 4 years after SSA awarded benefits.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve controls to ensure it accurately and timely pays OASDI benefits
withheld pending an SSI windfall offset determination. We estimate that SSA withheld
about $306 million in OASDI benefits to beneficiaries whose SSI windfall offset actions
were not processed. Of this amount, we estimate approximately $232 million was
payable to these beneficiaries. We also estimate that SSA improperly withheld or
overpaid about $51.5 million in OASDI benefits to beneficiaries whose windfall offset
actions were not correctly processed. Finally, we estimate that SSA did not disburse
about $725.9 million in OASDI benefits to beneficiaries whose windfall offset actions
were not timely processed (see Appendix C). Therefore, we recommend that SSA:


15
     The 1,150 days was the mean. The median was 1,001 days.
16
     The 314 days was the mean. The median was 181 days.
Page 7 - The Commissioner


1. Take appropriate action to complete the SSI windfall offset determinations and
   release the withheld OASDI benefits for the 83 beneficiaries whose offset actions
   were not processed or incorrectly processed, as identified by our audit.

2. Develop a plan to (a) identify and resolve the backlog of OASDI beneficiaries with
   pending SSI windfall offset determinations and (b) take corrective action on the
   remaining population of 52,382 OASDI beneficiaries whose SSI windfall offset
   actions were not processed or were incorrectly processed.

3. Implement additional controls to ensure SSI windfall offset actions are processed
   accurately and timely. For example, periodically identify and select for review
   beneficiaries with OASDI benefits withheld pending an SSI offset determination for
   an extended period.

AGENCY COMMENTS
SSA agreed with Recommendations 1 and 3 and partially agreed with
Recommendation 2. For Recommendation 2, SSA agreed to continue to identify
and resolve pending windfall offset determinations and explore ways to ensure offset
actions are completed timely and accurately. However, SSA did not agree to rework
the population of unprocessed and incorrectly processed windfall offset actions. SSA
believes the unprocessed cases were being controlled and processed and believes
that identifying the incorrectly processed cases would require a review of all cases
processed (correct and incorrect). Finally, SSA stated it recently provided its
employees windfall offset training and agreed to evaluate the need for additional
training. See Appendix D for the full text of SSA’s comments.

OIG RESPONSE
For the unprocessed windfall offset actions, we found that SSA field offices and
processing centers were not controlling these cases. None of the pending cases in
our sample were controlled by diaries or included on the e4345 Web-based application.
As a result, these actions had been pending for an average of 3.5 years. SSA
could readily identify this population by matching MBR windfall offset data to the
Supplemental Security Record and its e4345 Website.

For the incorrectly processed windfall offset actions, we do not believe SSA would
need to review every case already worked to identify this population. Our review found
that 25 (92.5 percent) of the 27 cases in our sample of incorrectly processed cases
contained discrepant offset data within SSA’s payment records. As a result, SSA could
perform a match to identify this population.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
U.S.C.   United States Code
E4345    electronic form 4345
                                                                      Appendix B

Scope and Methodology
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of 158,028 beneficiaries who had at least 1 month of Old-Age,
Survivors and Disability Insurance (OASDI) benefits withheld pending a Supplemental
Security Income (SSI) windfall offset determination as of March 2010.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

•   reviewed queries from SSA’s MBR, Payment History Update System, electronic form
    4345 Website, Claims File Record Management System, and Processing Center
    Action Control System;

•   selected a random sample of 250 beneficiaries; and

•   reviewed the actions SSA took to process the SSI windfall offset determinations and
    issue any withheld OASDI benefits accurately and timely.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed our audit work in Richmond, California, and Baltimore, Maryland,
between August 2010 and March 2011. The entity audited was the Office of Operations
under the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                     Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record of 158,028 beneficiaries who had at least 1 month of Old-Age,
Survivors and Disability Insurance (OASDI) benefits withheld pending a Supplemental
Security Income (SSI) windfall offset determination as of March 2010. We selected a
random sample of 250 beneficiaries to determine whether SSA had adequate controls
to ensure OASDI benefits that had been withheld pending an SSI windfall offset
determination were paid accurately and timely.

SSI Windfall Offset Actions Not Processed

We found that SSA had not processed the SSI windfall offset actions for 56 of the
250 beneficiaries in our sample. As a result, SSA withheld $484,044 in OASDI benefits
for which these beneficiaries may have been eligible. Projecting these results to our
population of 158,028 beneficiaries, we estimate that SSA withheld about $306 million
in OASDI benefits for 35,398 beneficiaries.

SSI Windfall Offset Actions Incorrectly Processed

We found that SSA incorrectly processed the SSI windfall offset actions for 27 of the
250 beneficiaries in our sample. As a result, SSA improperly withheld or overpaid
$81,450 in OASDI benefits for these beneficiaries. Projecting these results to our
population of 158,028 beneficiaries, we estimate that SSA had improperly paid about
$51.5 million in OASDI benefits to 17,067 beneficiaries.

SSI Windfall Offset Actions Not Timely Processed

We found that SSA did not timely process the SSI windfall offset actions for 95 of
the 250 beneficiaries in our sample. As a result, SSA withheld about $1.1 million in
OASDI benefits for an average of 314 days. Projecting these results to our population
of 158,028 beneficiaries, we estimate that 60,051 beneficiaries did not promptly receive
about $725.9 million in withheld OASDI benefits. The following tables provide the
details of our sample results and statistical projections.

Table 1 – Population and Sample Size

              Description                            Number of Beneficiaries
Population Size                                             158,028
Sample Size                                                     250




                                          C-1
Table 2 – SSI Windfall Offset Actions Not Processed

                                                      Number of             OASDI Benefits
            Description                              Beneficiaries             Withheld
 Sample Results                                             56                  $484,044
 Point Estimate                                         35,398               $305,969,768
 Projection - Lower Limit                               28,648               $190,900,946
 Projection - Upper Limit                               42,933               $421,038,590
Note: All statistical projections are at the 90-percent confidence level.

Of the 250 beneficiaries in our sample, we found that SSA correctly processed the SSI
windfall offset actions for 167 beneficiaries, including 72 that were correct and timely,
and 95 that were correct but not processed in a timely manner. For these beneficiaries,
SSA withheld about $2.31 million in OASDI benefits and subsequently paid about
$1.75 million (75.8 percent) after the SSI windfall offset actions. We applied this
percentage to our sample results and estimate that $366,905 of the $484,044 is
payable to the 56 beneficiaries. We also applied this percentage to the $306 million in
withheld OASDI benefits for the 35,398 beneficiaries, and estimate that approximately
$232 million is payable to these beneficiaries.

Table 3 – SSI Windfall Offset Actions Incorrectly Processed

                                                      Number of             Incorrect OASDI
            Description                              Beneficiaries              Benefits
 Sample Results                                             27                    $81,450
 Point Estimate                                         17,067                $51,485,206
 Projection - Lower Limit                               12,225                $24,691,727
 Projection - Upper Limit                               23,043                $78,278,686
Note: All statistical projections are at the 90-percent confidence level.

Table 4 – SSI Windfall Offset Actions Not Timely Processed

                                                      Number of             OASDI Benefits
            Description                              Beneficiaries          Not Paid Timely
 Sample Results                                             95                  $1,148,362
 Point Estimate                                         60,051               $725,893,318
 Projection - Lower Limit                               51,962               $536,139,157
 Projection - Upper Limit                               68,477               $915,647,479
Note: All statistical projections are at the 90-percent confidence level.




                                                    C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      October 24, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Old-Age Survivors and Disability Insurance
           Benefits Withheld Pending Supplemental Security Income Windfall Offset” (A-09-11-11130)--
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our revised comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “OLD-AGE, SURVIVORS AND DISABILITY INSURANCE BENEFITS
WITHHELD PENDING SUPPLEMENTAL SECURITY INCOME WINDFALL
OFFSET” (A-09-11-11130)

Recommendation 1

Take appropriate action to complete the Supplemental Security Income (SSI) windfall offset
determinations and release the withheld Old-Age, Survivors and Disability Insurance (OASDI)
benefits for the 83 beneficiaries whose offset actions were not processed or incorrectly
processed.

Response

We agree.

Recommendation 2

Note: Recommendation 2 contains two distinct recommendations. We respond to each
recommendation separately below.

Recommendation 2 (a)

Develop a plan to (a) identify and resolve the backlog of OASDI beneficiaries with pending SSI
windfall offset determinations.

Response

We agree. However, the vast majority of these cases are not “backlogged.” Rather, they have
been controlled and are being processed by our field offices and processing centers. We will
continue to identify and resolve pending windfall offset determinations, and, as we noted in our
response to recommendation 3, we continue to explore ways to ensure that we complete offset
actions timely and accurately.

Recommendation 2 (b)

Develop a plan to (b) take corrective action on the remaining population of 52,382 OASDI
beneficiaries whose SSI windfall offset actions were not processed or were incorrectly
processed.

Response

We disagree. We would have to re-work all 122,630 cases to identify the estimated errors,
which would mean reviewing cases we processed correctly. We cannot agree to re-work these
cases, because we do not have sufficient resources to devote to that effort and it would adversely
affect other critical workloads. However, we recently provided training sessions on advanced




                                               D-2
windfall offset topics and techniques. We will continue to evaluate the need for additional
training.

Recommendation 3

Implement additional controls to process SSI windfall offset actions accurately in a timely
manner. For example, periodically identify and select for review beneficiaries with OASDI
benefits withheld pending an SSI offset determination for an extended period.

Response

We agree. Over the past several years, we have actively pursued ways to improve, simplify, and
further automate the process. We plan to automate additional functions that currently require
manual computations to improve both timeliness and accuracy.




                                              D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Vickie Choy, Auditor

   Leticia Lew, Program Analyst

   Jim Sippel, Senior Auditor

   Wilfred Wong, Information Technology Specialist

   Joseph Cross, Information Technology Specialist

   Charles Zaepfel, Information Technology Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-09-11-11130.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
